RECORD NUMBER:
__________________________________________
______
United States Supreme Court
MATTHEW WILLIAM GEORGE,
Petitioner ,
- V. COMMONWEALTH OF VIRGINIA,
Respondent
PETITION FOR CERTIORARI FROM JUDGMENT
OF THE VIRGINIA SUPREME COURT
PETITION FOR CERTIORARI
DALE R. JENSEN
DALE JENSEN, PLC
606 BULL RUN
STAUNTON, VIRGINIA 24401
(434) 249-3874
djensen@jensenjustice.com
Counsel for Petitioner

PETITION FOR CERTIORARI

Questions Presented for Review
A.
Does a Virginia Court have the authority to
extinguish a defendant’s post commitment
First Amendment Rights?
B.
Can a Virginia Court subject a defendant to
cruel and unusual punishment in post
commitment probation?
C.
Does any court have the authority to
extinguish a defendant’s Fifth Amendment
rights?

i

PETITION FOR CERTIORARI

List of All Parties to the Proceeding
All parties are as listed in the caption hereof.
Matthew William George is an individual for which
no corporate disclosure statement is required by Rule
29.6.

ii

PETITION FOR CERTIORARI

TABLE OF CONTENTS
Page
Questions Presented for Review
i
List of All Parties to the Proceeding
ii
I. Citations of the Official and Unofficial
Reports of the Opinions and Orders Entered
in this Case by Courts
1
II. Statement of the Basis of Appellate
Jurisdiction
2
III. Constitutional Provisions and Statutes
Involved in the Case
3
IV. Statement of the Case
7
A. Procedural Posture
7
B. Statement of Facts
9
V. Argument
11
VI. Overall Conclusion
61
App. A Sentencing order
App. B Petition denial
App. C Order Denying Appeal
App. D State petition for appeal
App. E Opposition brief
App. F Reply brief
App. G Petition for Appeal
App. H Opposition brief
App. I Handbook for Virginia
Grand Jurors

iii

App. A 1-8
App. B 1-11
App. C 1-2
App. D 1-74
App. E 1-25
App. F 1-17
App. G 1-74
App. H 1-27
App. I 1-57

PETITION FOR CERTIORARI

TABLE OF CASES
Cases

Adamson v. California
332 U.S. 46, 67 S. Ct. 1672 (1947)
Adcock v. Commonwealth
49 Va. (Gratt.) 661, 671 (1851)
Aetna Ins. Co. v. Kennedy
301 U.S. 389, 57 S. Ct. 809 (1937)
Ashcroft v. Free Speech Coal.
535 U.S. 234, 122 S. Ct. 1389 (2002)
Atkins v. Virginia
536 U.S. 304, 122 S. Ct. 2246 (2002)
Barron v. Baltimore
7 Pet. 243 (1833)
Benton v. Maryland
3395 U.S. 784, 89 S. Ct. 2056 (1969)
Branzburg v. Hayes
408 U.S. 665 (1972)
Chi., B. & Q. R. Co. v. Chicago
166 U.S. 226, 17 S. Ct. 581 (1897)
Coker v. Georgia
433 U.S. 584 (1977)
Commonwealth v. Cawood
4 Va. 527 (1826)
Costello v. United States
350 U.S. 359 (1956)
District of Columbia v. Heller
554 U.S. 570, 128 S. Ct. 2783 (2008)
Duncan v. Louisiana
391 U.S. 145, 88 S. Ct. 1444 (1968)
Edwards v. Whitlock
57 Va. Cir. 337 (2002)
Estelle v. Gamble
v

PETITION FOR CERTIORARI

Page

36, 52
61
21-22
18
24
36, 56
37, 50
35
50, 51
23-24
60-61
35
53
36-37
24

429 U.S. 97 (1976)
24
Ex parte Wilson
114 U.S. 417, 5 S. Ct. 935 (1885)
34
Farewell v. Commonwealth
167 Va. 475, 189 S.E. 321 (1937)
32
Fay v. Noia
372 U.S. 391 83 S. Ct. 822 (1963)
9, 11
Gideon v. Wainright
372 U.S. 335, 83 S. Ct. 792 (1963)
36-37
Gregg v. Georgia
428 U.S. 153 (1976)
23-24
Griffin v. California
380 U.S. 609, 615 (1965)
33-34
Guynn v. Commonwealth
163 Va. 1042, 177 S.E. 227 (1934)
33
Hanson v. Smyth
183 Va. 384 (1944)
32-33
Hodges v. Easton
106 U.S. 408, 1 S. Ct. 307 (1882)
21
Hume v. United States
132 U.S. 406 (1889)
19-21
Hurtado v. California
110 U.S. 516 (1884)
31, 39-40
In re Kemmler
136 U.S. 436 (1890)
23
Jackson v. Denno
378 U.S. 368, 84 S. Ct. 1774 (1964)
9, 11-12
Johnson v. Zerbst
304 U.S. 458, 58 S. Ct. 1019
21-22
Magill v. Brown
16 F. Cas. 408, 428, F. Cas. No. 8952 (No. 8,952)
(CC ED Pa. 1833)
54
Malloy v. Hogan
378 U.S. 1, 84 S. Ct. 1489 (1964)
37, 50
Marbury v. Madison
vi

PETITION FOR CERTIORARI

5 U.S. 137, 1 Cranch 137 (1803)
48, 51
McDonald v. City of Chi.
561 U.S. 742, 130 S. Ct. 3020 (2010) 35-41, 52-58
Ohio Bell Tel. Co. v. Pub. Utils. Com.
301 U.S. 292, 57 S. Ct. 724 (1937)
21-22
Packingham v. North Carolina
137 S. Ct. 1730 (2017)
12-18
Pine v. Commonwealth
121 Va. 812, 93 S.E. 652 (1917)
32-33
Pointer v. Texas
380 U.S. 400, 85 S. Ct. 1065 (1965)
37
Reno v. American Civil Liberties Union
521 U. S. 844, 117 S. Ct. 2329 (1997)
14-17
Rhodes v. Chapman
452 U.S. 337, 101 S. Ct. 2392 (1981)
24
Robinson v. California
370 U.S. 660, 82 S.Ct. 1417 (1962)
25
Simmons v. Commonwealth
89 Va. 156, 157 (1892)
60
United States v. Calandra
414 U.S. 338, 94 S. Ct. 613 (1974)
34-35
United States v. Lennick
18 F.3d 814, 817 (9th Cir. 1994)
69
United States v. Smyth
104 F. Supp. 283 (N.D. Cal. 1952)
44-47
Ward v. Rock Against Racism
491 U. S. 781, 109 S. Ct. 2746 (1989)
14
Washington v. Texas
388 U.S. 14, 87 S. Ct. 1920 (1967)
37
Weems v. United States
217 U.S. 349, 30 S. Ct. 544 (1910)
24-25
Wilkerson v. Utah
99 U.S. 130 (1879)
23
Constitution
vii

PETITION FOR CERTIORARI

Article V
First Amendment
Fifth Amendment
Eighth Amendment
Fourteenth Amendment

28
3, 11-22, 52
passim
3-4, 22-28, 52
3-4, 13, 24, 28-59

Statutes

28 U.S.C. § 1257
Va. Code §17.1-123
Va. Code §17.1-124
Va. Code §17.1-240
Va. Code §18. 2-374.1:1
Va. Code §19.2-242

3
4-5, 30
4-5, 30
4, 6, 30
1, 6-7
61

Secondary Sources
1 Annals of Cong. 431-432, 436-437, 440-442 (1789) 56
1 Journals of the Continental Congress 1774-1789, p.
68 (W. Ford. ed. 1904)
55
1 W. Blackstone, Commentaries
53-54
B. Bailyn, The Ideological Origins of the American
Revolution 77-79 (1967)
55
Bonner, Lawyers and Litigants in Ancient Athens
36 (1927)
42
Constitution of Clarendon
43
Handbook for Virginia Grand Jurors
42-43, 47
H. R. Rep. No. 30, 39th Cong., 1st Sess., p. XXI (1866)
57
Magna Carta
43
Patterson, The Administration of Justice in Great
Britain 200 (1936)
42
Report of the Joint Committee on Reconstruction, S.
Rep. No. 112, 39th Cong., 1st Sess., 15 (1866)
57
Whyte, Is the Grand Jury Necessary?, 45 Wm. and
Mary L. Rev. 462-71 (1959)
42

viii

PETITION FOR CERTIORARI

I.

Citations of the Official and Unofficial

Reports of the Opinions and Orders Entered
in this Case by Courts
On or about December 7, 2017,
documents of the Circuit Court of Frederick County
(the “Circuit Court”) purported to indict George on
one count of distribution of child pornography; one
count of possession of child pornography; and two
counts of possession of child pornography, 2nd or
subsequent offense.
On or about October 12, 2018, George entered
a guilty plea to two counts of possession of child
pornography and one count of reproduction of child
pornography in violation of Va. Code § 18.2-374.1:1.
On or about February 1, 2019, George was
sentenced to a total of twenty years for these
convictions with eighteen years and two months
suspended. The Order was not entered into an

official report.
On September 6, 2019, the Virginia Court of
Appeals denied George’s Petition for Appeal.
George timely noticed his appeal to the Order
of the Virginia Court of Appeals. The Virginia Court
of Appeals entered its Order finally dismissing the
Petition for Appeal on September 6, 2019. The Order
was not entered into an official report.
The Virginia Supreme Court entered its Order
finally dismissing the Petition for Appeal on April 24,
2020. The Order was not entered into an official
report.

II.

Statement of the Basis of Appellate

Jurisdiction
The Virginia Supreme Court entered its
Judgment on April 24, 2020.
This Court has appellate jurisdiction in this

Petition for Certiorari

Page 2

appeal pursuant to 28 U.S.C. § 1257.

III.

Constitutional Provisions and Statutes

Involved in the Case
The First, Fifth, Eighth, and Fourteenth
Amendments to the United States Constitution are
involved in this case.
The First Amendment to the United States
Constitution provides:
Congress shall make no law respecting
an establishment of religion, or
prohibiting the free exercise thereof; or
abridging the freedom of speech, or of
the press; or the right of the people
peaceably to assemble, and to petition
the government for a redress of
grievances.
The Fifth Amendment to the United States
Constitution provides in pertinent part:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
in the land or naval forces, or in the
Petition for Certiorari

Page 3

Militia, when in actual service in time of
War or public danger.
The Eighth Amendment to the United States
Constitution provides:
Excessive bail shall not be required, nor
excessive fines imposed, nor cruel and
unusual punishments inflicted.
The Fourteenth Amendment to the United
States Constitution provides in pertinent part:
No state shall make or enforce any law
which shall abridge the privileges or
immunities of citizens of the United
States; nor shall any state deprive any
person of life, liberty, or property,
without due process of law; nor deny to
any person within its jurisdiction the
equal protection of the laws …
George’s indictments were defective pursuant
to Va. Code §§ 17.1-123(A) and 17.1-124 and 17.1240, which are involved in this case, which implicate
the Fifth Amendment and the Fourteenth
Amendments to the United States Constitution.
Va. Code § 17.1-123(A) states:

Petition for Certiorari

Page 4

All orders that make up each day’s
proceedings of every circuit court shall
be recorded by the clerk in a book
known as the order book. Orders that
make up each day’s proceedings that
have been recorded in the orderbook
shall be deemed the official record
pursuant to § 8.01-389 when (i)
the judge’s signature is shown in
the order, (ii) the judge’s signature is
shown in the order book, or (iii)
an order is recorded in the order book
on the last day of each term showing the
signature of each judge presiding during
the term.
Va. Code § 17.1-124 states in pertinent part:
each circuit court clerk shall keep order
books or, in lieu thereof, an automated
system recording all proceedings, orders
and judgments of the court in all
matters, all decrees, and decretal orders
of such court and all matters pertaining
to trusts, the appointment and
qualification of trustees, committees,
administrators, executors, conservators
and guardians shall be recorded, except
when the same are appointed by the
clerk of court, in which event the order
appointing such administrators or
executors, shall be made and entered in
the clerk's order book. In any circuit
court, the clerk may, with the approval
of the chief judge of the court, by order
entered of record, divide the order book
Petition for Certiorari

Page 5

into two sections, to be known as the
civil order book and the criminal order
book.
Va. Code § 17.1-240 states in pertinent part:
A procedural microphotographic
process, digital reproduction, or any
other micrographic process that stores
images of documents in reduced size or
in electronic format may be used to
accomplish the recording of writings
otherwise required by any provision of
law to be spread in a book or retained in
the circuit court clerk's office, including
the civil and criminal order books, the
Will Book or Fiduciary Account Book,
the Juvenile Order Book, the Adoption
Order Book, the Trust Fund Order
Book, the Deed Book, the Plat Book, the
Land Book, the Bond Book, the
Judgment Docket Book, the Partnership
or Assumed Name Certificate Book,
marriage records, and financing
statements.
George was convicted pursuant to Va. Code §
18.2-374.1:1, which is involved in this case. Va. Code
§ 18.2-374.1:1 states, in pertinent part:
Any person who knowingly possesses
child pornography is guilty of a Class 6
felony … Any person who knowingly (i)
reproduces by any means, including by
Petition for Certiorari

Page 6

computer, sells, gives away, distributes,
electronically transmits, displays,
purchases, or possesses with intent to
sell, give away, distribute, transmit, or
display child pornography or (ii)
commands, entreats, or otherwise
attempts to persuade another person to
send, submit, transfer or provide to him
any child pornography in order to gain
entry into a group, association, or
assembly of persons engaged in trading
or sharing child pornography shall be
punished by not less than five years nor
more than 20 years in a state
correctional facility. Any person who
commits a second or subsequent
violation under this subsection shall be
punished by a term of imprisonment of
not less than five years nor more than
20 years in a state correctional facility,
five years of which shall be a mandatory
minimum term of imprisonment. The
mandatory minimum terms of
imprisonment prescribed for violations
of this section shall be served
consecutively with any other sentence.
IV.

Statement of the Case
A. Procedural Posture
George was sentenced by the Frederick

County Circuit Court (the “Circuit Court”) on two
counts of possession of child pornography and one
Petition for Certiorari

Page 7

count of reproduction of child pornography in
violation of Va. Code § 18.2-374.1:1. No court order
signed by any Circuit Court judge was ever entered
confirming that a grand jury had been convened on
open court or acted according to law. Accordingly,
George was never indicted by a grand jury such that
the Circuit Court had jurisdiction over George.
George appeared in the Circuit Court and
entered guilty pleas to the charges. On October 12,
2018, George was sentenced to a total of twenty
years for these convictions with eighteen years and
two months suspended.
George timely appealed his convictions, which
appeals were denied by the Virginia Court of Appeals
and the Virginia Supreme Court. Each federal
question referenced herein was raised in George’s
Petitions for Appeal to the Court of Appeals of
Virginia and the Virginia Supreme Court. Exh. D;

Petition for Certiorari

Page 8

Exh. G. All constitutional rights violations by the
courts of Virginia were dismissed on procedural
grounds. Exh. B; Exh. C. However, such
constitutional violations cannot be cured by any
procedural grounds that may occur in a state court
proceeding. Jackson v. Denno, 378 U.S. 368, 370 n.1,
84 S. Ct. 1774, 1777 (1964) (citing Fay v. Noia, 372
U.S. 391, 426-27, 83 S. Ct. 822, 842 (1963)).
This Petition for Writ of Certiorari is filed
seeking reversal of the decisions of the Circuit Court,
the Virginia Court of Appeals and the Virginia
Supreme Court.

B. Statement of Facts
George was arrested on child pornography
charges. George enters guilty pleas to certain of
those charges.
A detailed review of Circuit Court records has

Petition for Certiorari

Page 9

revealed that no order signed by a judge was ever
entered indicting George that stated that the grand
jury indictment was returned in open court.
On or about February 14, 2019 the Circuit
Court entered the Sentencing Order, which provided

inter alia, “Defendant shall have no access for
personal use to computers, electronics, smart phones,
or social media. He is able to have supervised access
for employment purposes only.”
Unconfirmed records in the files of the Circuit
Court allege that a grand jury indicted George on
two counts of possession with intent to distribute a
controlled substance, one count of possession with
intent to distribute marijuana, and one count of
selling drugs on or near certain properties. No court
order signed by the Circuit Court judge was ever
entered regarding the grand jury that indicates that
any such proceeding ever took place or that George

Petition for Certiorari

Page 10

was ever indicted.

V.

Argument
The Virginia Supreme Court erred by failing

to correct the Constitutional errors of this case and
denying George’s appeal on procedural grounds.
An unconstitutional restraint cannot be cured
by any procedural grounds that may occur in a state
court proceeding. Denno, 378 U.S. at 370 n.1, 84 S.
Ct. at 1777 (citing Fay v. Noia, 372 U.S. at 426-27,
83 S. Ct. at 842.

A. Discussion of Questions Presented
1.

Does a Virginia Court have the authority to
extinguish a defendant’s post commitment
First Amendment Rights?
The Sentencing Order states in pertinent part,

the “Defendant shall have no access for personal use

Petition for Certiorari

Page 11

to computers, electronics, smart phones, or social
media. He is able to have supervised access for
employment purposes only.”
This post commitment ban on personal use of
computers, electronics, smart phones, or social media
violates the First Amendment.
The courts of Virginia erred by failing to
correct the Constitutional errors of this case.
The arguments advanced in the post-trial
motion hearing in the Circuit Court proceeding were
irrelevant because the order contains a facially
unconstitutional restraint. Any reasoning that
might have been advanced by the Circuit Court
simply cannot legitimize or cure the
unconstitutional restraint. Denno, 378 U.S. at 370
n.1, 84 S. Ct. at 1777.
The referenced provision of the Sentencing
Order is unconstitutional and should be corrected

Petition for Certiorari

Page 12

forthwith. Such overly broad restrictions on access
to “computers, electronics, smart phones, or social
media” was recently found to be violative the First
Amendment and, therefore, unconstitutional.

Packingham v. North Carolina, 137 S. Ct. 1730, 1738
(2017) (holding “[i]t is well established that, as a
general rule, the Government “may not suppress
lawful speech as the means to suppress unlawful
speech”). Yet, that is exactly what the Sentencing
Order does. The Sentencing Order completely bars
George from ever using for personal purposes any
and all “computers, electronics, smart phones, or
social media.”

Packingham is binding authority that applies
here (8-0 decision).

Packingham focused on First Amendment
issues – applied to the states through the due process
clause of the Fourteenth Amendment.

Petition for Certiorari

Page 13

A fundamental principle of the First
Amendment is that all persons have access to places
where they can speak and listen, and then, after
reflection, speak and listen once more. Packingham,
137 S. Ct. at 1735. The United States Supreme
Court has sought to protect the right to speak in this
spatial context. Id. A basic rule, for example, is that
a street or a park is a quintessential forum for the
exercise of First Amendment rights. Id.
(citing, Ward v. Rock Against Racism, 491 U. S. 781,
796, 109 S. Ct. 2746, 105 L. Ed. 2d 661 (1989)). Even
now, these places are still essential venues for public
gatherings to celebrate some views, to protest others,
or simply to learn and inquire. Packingham, 137 S.
Ct. at 1735.
While in the past there may have been
difficulty in identifying the most important places (in
a spatial sense) for the exchange of views, today the

Petition for Certiorari

Page 14

answer is clear. Id. It is cyberspace—the “vast
democratic forums of the Internet” in
general, Reno v. American Civil Liberties Union, 521
U. S. 844, 868, 117 S. Ct. 2329, 138 L. Ed. 2d 874
(1997), and social media in particular. Packingham,
137 S. Ct. at 1735. Seven in ten American adults use
at least one Internet social networking service. Id.
One of the most popular of these sites is Facebook,
the site used by the petitioner in Packingham that
led to his conviction. Id. According to sources cited
to the Court in the Packingham case, Facebook had
1.79 billion active users at that time. Id., at 6. This
is about three times the population of North
America. Id. The number of active users has
doubtlessly increased since that time.
Social media offers “relatively unlimited, lowcost capacity for communication of all kinds.” Id.
(citing, Reno, 521 U. S. at 870, 117 S. Ct. 2329, 138

Petition for Certiorari

Page 15

L. Ed. 2d 874). On Facebook, for example, users can
debate religion and politics with their friends and
neighbors or share vacation photos. Packingham,
137 S. Ct. at 1735. On LinkedIn, users can look for
work, advertise for employees, or review tips on
entrepreneurship. Id. On Twitter, users can petition
their elected representatives and otherwise engage
with them in a direct manner. Id. Indeed,
Governors in all 50 States and almost every Member
of Congress have set up accounts for this purpose.

Id. In short, social media users employ these
websites to engage in a wide array of protected First
Amendment activity on topics “as diverse as human
thought.” Packingham, 137 S. Ct. at 1735-736
(citing, Reno, 521 U. S. at 870, 117 S. Ct. 2329, 138
L. Ed. 2d 874).
Social media allows users to gain access to
information and communicate with one another

Petition for Certiorari

Page 16

about it on any subject that might come to mind.

Packingham, 137 S. Ct. at 1737. Just as in issuing
the Sentencing Order of George’s case utterly
prohibits his use of social media, by prohibiting sex
offenders from using those websites, North Carolina
with one broad stroke barred access to what for
many was the principal sources for knowing current
events, checking ads for employment, speaking and
listening in the modern public square, and otherwise
exploring the vast realms of human thought and
knowledge. Id. These websites can provide perhaps
the most powerful mechanisms available to a private
citizen to make his or her voice heard. They allow a
person with an Internet connection to “become a
town crier with a voice that resonates farther than it
could from any soapbox.” Id. (citing, Reno, 521 U. S.,
at 870, 117 S. Ct. 2329, 138 L. Ed. 2d 874). The

Petition for Certiorari

Page 17

Sentencing Order prevents George from any lawful
speech on social media whatsoever.
In sum, to foreclose access to social media
altogether is to prevent the user from engaging in
the legitimate exercise of First Amendment rights.

Packingham, 137 S. Ct. at 1737. The Packingham
Court found it unsettling to suggest that even
persons who have completed their sentences could
only use a limited set of websites. Id. Here, George
is not even permitted to use a computer or access any
website whatsoever. Even convicted criminals—and
in some instances especially convicted criminals—
might receive legitimate benefits from these means
for access to the world of ideas, in particular if they
seek to reform and to pursue lawful and rewarding
lives. Id.
It is well established that, as a general rule,
the Government “may not suppress lawful speech as

Petition for Certiorari

Page 18

the means to suppress unlawful speech.”

Packingham, 137 S. Ct. at 1738 (citing, Ashcroft v.
Free Speech Coal., 535 U.S. 234, 255, 122 S. Ct.
1389, 1404 (2002)).
The Sentencing Order violates George’s First
Amendment by suppressing his lawful speech.
Furthermore, It has been said that an
agreement is unconscionable if no person in his
senses would make it on the one hand and no fair
and honest person would accept it on the other.

Hume v. United States, 132 U.S. 406 (1889).
The scope of the exclusions in the sentencing
order facially so overly broad that they are
unconscionable. The exclusions are not limited in
time and apply even after George has served his
sentence and completed probation. Not only does the
Sentencing Order completely ban any personal use of
equipment used to access the Internet, but it also

Petition for Certiorari

Page 19

purports to prohibit any use of electronics.
Electronics are pervasive today. The plain language
of the Sentencing Order provides an outright
prohibition, inter alia, to George having personal use
of most analog wrist watches, any household
thermostat, a digital kitchen stove, a microwave
oven, a radio, a television set, any type of motor
vehicle, any type of computer or tablet, many tools
(e.g., battery chargers, power saws, and power drills,
etc.), or any telephone. The Sentencing Order places
George in a position that he would have to have
someone with him virtually all of the time in order
for him to avoid violating the order by his use of
simple everyday things, the use of which poses no
risk to anyone else. As just a single example,
prohibiting George from having personal use of a
television to watch the evening news is facially

Petition for Certiorari

Page 20

unconstitutional and has no benefit to the
Commonwealth of Virginia.
No person in his senses would agree to the
onerous plea agreement provision, which provision is
reflected in the Sentencing Order, on the one hand
and no fair and honest person would have accepted it
on the other. Hume, 132 U.S. 406.
It has been pointed out that courts indulge

every reasonable presumption against waiver
of fundamental constitutional rights . Aetna
Ins. Co. v. Kennedy, 301 U.S. 389, 393, 57 S. Ct. 809,
812 (1937); Hodges v. Easton, 106 U.S. 408, 412, 1 S.
Ct. 307, 311 (1882). Courts “do not presume
acquiescence in the loss of fundamental rights.” Ohio

Bell Tel. Co. v. Pub. Utils. Com., 301 U.S. 292, 307,
57 S. Ct. 724, 731 (1937). A waiver is ordinarily an
intentional relinquishment or abandonment of a
known right or privilege. Johnson v. Zerbst, 304 U.S.

Petition for Certiorari

Page 21

458, 464, 58 S. Ct. 1019, 1023 (1938).
The Commonwealth has contended that the
plea agreement signed by George in conjunction with
his entry of his guilty pleas waived his First
Amendment rights.
However, George did not waive his First
Amendment rights anywhere in that agreement. If
the Commonwealth wanted to include such a waiver,
it should have explicitly included it in the plea
agreement. Not such waiver was in the agreement
or ever agreed to by George. The presumption
against waiver makes such a contention unavailing
to the Commonwealth pursuant to Aetna Ins. Co.,

Hodges, Ohio Bell Tel. Co., and Zerbst.

2.

Can a Virginia Court subject a defendant to
cruel and unusual punishment in post
commitment probation?

Petition for Certiorari

Page 22

The courts of Virginia upheld and affirmed a
facially unconstitutional Sentencing Order as stated
regarding the First Amendment error, supra.
Accordingly, George incorporates by reference the
discussion concerning errors of the Virginia courts.
George never waived any of his First or Eighth
Amendment rights in this case.
The Eighth Amendment, in only three words,
imposes the constitutional limitation upon
punishments: they cannot be “cruel and unusual.”
The Court has interpreted these words “in a flexible
and dynamic manner,” Gregg v. Georgia, 428 U.S.
153, 171 (1976) (joint opinion), and has extended the
Amendment’s reach beyond the barbarous physical
punishments at issue in the Court’s earliest cases.
See Wilkerson v. Utah, 99 U.S. 130 (1879); In re

Kemmler, 136 U.S. 436 (1890). Today the Eighth
Amendment prohibits punishments which, although

Petition for Certiorari

Page 23

not physically barbarous, “involve the unnecessary
and wanton infliction of pain,” Gregg, supra, 428
U.S. at 173, or are grossly disproportionate to the
severity of the crime, Coker v. Georgia, 433 U.S. 584,
592 (1977) (plurality opinion); Weems v. United

States, 217 U.S. 349, 30 S. Ct. 544 (1910).
Among “unnecessary and wanton” inflictions
of pain are those that are “totally without penological
justification.” Gregg, 428 U.S. at 183; Estelle v.

Gamble, 429 U.S. 97, 103 (1976). Rhodes v.
Chapman, 452 U.S. 337, 345-46, 101 S. Ct. 2392,
2398-99 (1981).
The Eighth Amendment to the United States
Constitution prohibits “excessive” sanctions. U.S.
Const., Amend. VIII; Atkins v. Virginia, 536 U.S.
304, 311, 122 S. Ct. 2242, 2246, 153 L. Ed. 2d 335,
343 (2002). The Eighth Amendment is applicable to
Virginia through operation of the Fourteenth

Petition for Certiorari

Page 24

Amendment to the United States Constitution.

Estelle, 429 U.S. at 101; Edwards v. Whitlock, 57 Va.
Cir. 337 (2002).
In Weems, 217 U.S. at 349, the Supreme Court
held that a punishment of 12 years jailed in irons at
hard and painful labor for the crime of falsifying
records was excessive. The Court explained, “that it
is a precept of justice that punishment for crime
should be graduated and proportioned to the
offense.” Id. at 367. Thus, even though
“imprisonment for ninety days is not, in the abstract,
a punishment which is either cruel or unusual,” it
may not be imposed as a penalty for; “‘the status’ of
narcotic addiction,” Robinson v. California, 370 U.S.
660, 666, 8 L.Ed.2d 758, 82 S.Ct. 1417 (1962),
because such a sanction would be excessive. As
Justice Stewart explained in Robinson: “Even one
day in prison would be a cruel and unusual

Petition for Certiorari

Page 25

punishment for the ‘crime’ of having a common cold.”

Id. at 667.
The Sentencing Order states in pertinent part,
“[t]he Defendant shall have no access for personal
use to computers, electronics, smart phones, or social
media. He is able to have supervised access for
employment purposes only.”
Not only does the Sentencing Order completely
ban any personal use of equipment used to access the
Internet, but it also purports to prohibit any use of
electronics. Electronics are pervasive today. The
plain language of the Sentencing Order provides an
outright prohibition, inter alia, to George having
personal use of most analog wrist watches, any
household thermostat, any electrical kitchen stove,
any microwave oven, any radio, any television set,
any type of motor vehicle, any type of computer or
tablet, many tools (e.g., battery chargers, power

Petition for Certiorari

Page 26

saws, and power drills, etc.), or any telephone. The
Sentencing Order places George in a position that he
would have to have someone with him virtually all of
the time in order for him to avoid violating the order
by his use of simple everyday things, the use of
which poses no risk to anyone else. As just a single
example, there is simply no justification for
prohibiting George from having personal use of a
television to watch the evening news as required by
the Sentencing Order. As another example, George
cannot drive a car. Each and every car made has
electronics, the use of which the Sentencing Order
forbids.
Forbidding George from using any electronics
is facially excessive. Forbidding George from using
any electronics involves the unnecessary and wanton
infliction of pain. Forbidding George from using any
electronics is totally without penological justification.

Petition for Certiorari

Page 27

As a result, the Sentencing Order violates
George’s Eighth Amendment rights and should be
declared void.

3.

Does any court have the authority to
extinguish a defendant’s Fifth Amendment
rights that have not been waived?
The courts of Virginia never established

jurisdiction over George.
Article V of the U.S. Constitution establishes
the only process via which amendments can be
made.
As such, no Court, including this Court can
unilaterally amend the U.S. Constitution by judicial
fiat.

A. The Right to a Grand Jury Indictment
Conferred by the Fifth Amendment to
the United States Constitution Applies

Petition for Certiorari

Page 28

to Virginia via the Fourteenth
Amendment
The right to a grand jury indictment is
guaranteed by the Fifth Amendment, which applies
to Virginia via the Fourteenth Amendment. Past
legal error by courts, including this Court should
not be allowed to stand under the plain language of
the U.S. Constitution.
This Petition should be granted because
George was never properly indicted by a grand jury.
Pursuant to the Fifth Amendment, an indictment is
a bedrock requirement for a court to have
jurisdiction to enter a valid criminal judgment
under the U.S. Constitution.
Documents of the Frederick County Circuit
Court (the “Circuit Court”) alleged that a grand jury
was convened to hear allegations against George,
but those documents show that alleged grand jury
did not indict George according to Virginia law.
Petition for Certiorari

Page 29

Indictments were never stated to have been
returned in open court and a record of that return in
open court entered in an Order Book via a judge
signed order in compliance with Va. Code §§ 17.1123(A), 17.1-124, and 17.1-240.
The Petition relies upon a well-established
rule that when a grand jury returns an indictment,
the grand jury verdict must be presented in open
court and the facts recorded by an order signed by a
judge; and until this is done the accused is not
indicted.
Because no such indictment was ever signed
by a judge or recorded, the judgments against George
should be vacated.
The Fifth Amendment to the United States
Constitution provides in pertinent part:
No person shall be held to answer for a
capital, or otherwise infamous crime,
unless on a presentment or indictment
of a Grand Jury, except in cases arising
Petition for Certiorari

Page 30

in the land or naval forces, or in the
Militia, when in actual service in time of
War or public danger;
The right to a grand jury indictment conferred
by the Fifth Amendment to the United States
Constitution should apply to state indictments via
the Fourteenth Amendment. Given changes in
constitutional law that have occurred since Hurtado

v. California, 110 U.S. 516, 519 (1884) was decided
over 130 years ago, it is time to either clarify or
overrule that opinion.
State courts, such as those of Virginia in this
case, operate in violation of the Fifth Amendment’s
long-standing grand jury law and rights of
defendants and then claim that defendants
effectively have no recourse. It might be arguable,
albeit without constitutional authority, that states
can have indictment methods that have equivalent
protections to the federal grand jury system, the
Petition for Certiorari

Page 31

grand jury system of Virginia, and the grand jury
systems of other states. What should have never
been allowed is for a fundamental constitutional
right, such as the Fifth Amendment right to a grand
jury indictment be violated with impunity, and state
courts then to be able to claim that right to be
“merely procedural” and subject to waiver.
Virginia courts err by claiming that any
defective grand jury indictment is a waivable
procedural matter and was not jurisdictional. See,
e.g., Hanson v. Smyth, 183 Va. 384, 390-91 (1944).
In Hanson, the Virginia Supreme Court opined
(emphasis added):
While the Fifth Amendment to the
Federal Constitution requires a
presentment or indictment in
prosecutions under Federal
statutes “for a capital, or
otherwise infamous crime,” the
Virginia Constitution contains no
such requirement. Farewell v.
Commonwealth, 167 Va. 475, 484, 189
S.E. 321, 325; Pine v. Commonwealth,
Petition for Certiorari

Page 32

121 Va. 812, 835, 93 S.E. 652; Guynn v.
Commonwealth, 163 Va. 1042, 1046,
177 S.E. 227. In this State the
requirement is merely statutory …
Since the statutory requirement for an
indictment in the present case is not
jurisdictional, the failure of the record
to show affirmatively that the
indictment was returned into court by
the grand jury is not such a defect as
will render null and void the judgment
of conviction based thereon.

Hanson, 183 Va. at 390-91.
The Hanson opinion relied upon a legally
erroneous premise that the Fifth Amendment to the
Federal Constitution did not apply to Virginia under
the equal protection clause of the Fourteenth
Amendment. However, since Hanson was decided,
this Honorable Court has significantly expanded the
application of the Bill of Rights of the Constitution to
state law matters under the equal protection portion
of the Fourteenth Amendment. For example; in

Griffin v. California, 380 U.S. 609, 615 (1965); this
Honorable Court specifically held that the selfPetition for Certiorari

Page 33

incrimination provision of the Fifth Amendment
applied to the States by reason of the Fourteenth
Amendment.
The right to indictment by grand jury was and
is a longstanding right established by the law of
England. See, e.g., Ex parte Wilson, 114 U.S. 417,
423-24, 5 S. Ct. 935, 938 (1885). Without the
intervention of a grand jury, trials were not allowed
for capital crimes, nor for any felony. Id. The right
to a grand jury indictment was so fundamental to the
criminal justice rights of defendants that rights
therefor were placed in the Fifth Amendment of the
Bill of Rights. Id.; Fifth Amendment of the U.S.
Constitution.
As this Court has held (emphasis added):
In England, the grand jury served for
centuries both as a body of accusers
sworn to discover and present for trial
persons suspected of criminal
wrongdoing and as a protector of
citizens against arbitrary and
Petition for Certiorari

Page 34

oppressive governmental action. In
this country the Founders thought
the grand jury so essential to
basic liberties that they provided
in the Fifth Amendment that
federal prosecution for serious
crimes can only be instituted by
“a presentment or indictment of a
Grand Jury.” Cf. Costello v. United
States, 350 U.S. 359, 361-362 (1956).
The grand jury’s historic functions
survive to this day. Its responsibilities
continue to include both the
determination whether there is
probable cause to believe a crime has
been committed and the protection of
citizens against unfounded criminal
prosecutions. Branzburg v. Hayes, 408
U.S. 665, 686-687 (1972).

United States v. Calandra, 414 U.S. 338, 342-43, 94
S. Ct. 613, 617 (1974).
In 2010, this Honorable Court explained in
some detail the history of application of the Bill of
Rights to the States via the Fourteenth Amendment.

McDonald v. City of Chi., 561 U.S. 742, 761-65, 130
S. Ct. 3020, 3032-35 (2010). In McDonald, this Court
set forth in pertinent part (emphasis added):

Petition for Certiorari

Page 35

An alternative theory regarding the
relationship between the Bill of Rights
and § 1 of the Fourteenth Amendment
was championed by Justice Black. This
theory held that § 1 of the
Fourteenth Amendment totally
incorporated all of the provisions
of the Bill of Rights. See, e.g.,
Adamson, supra, at 71-72, 67 S. Ct.
1672, 91 L. Ed. 1903 (Black, J.,
dissenting); Duncan, supra, at 166, 88
S. Ct. 1444, 20 L. Ed. 2d 491 (Black, J.,
concurring). As Justice Black noted,
the chief congressional
proponents of the Fourteenth
Amendment espoused the view
that the Amendment made the
Bill of Rights applicable to the
States and, in so doing, overruled
this Court’s decision in Barron .
Adamson, supra, at 72, 67 S. Ct. 1672,
91 L. Ed. 1903 (dissenting opinion).
Nonetheless, the Court never has
embraced Justice Black’s “total
incorporation” theory.
While Justice Black’s theory was
never adopted, the Court
eventually moved in that
direction by initiating what has
been called a process of “selective
incorporation,” i.e ., the Court
began to hold that the Due
Process Clause fully incorporates
particular rights contained in the
first eight Amendments. See, e.g.,
Gideon v. Wainright, 372 U.S. 335, 341,
Petition for Certiorari

Page 36

83 S. Ct. 792, 9 L. Ed. 2d 799 (1963);
Malloy v. Hogan, 378 U.S. 1, 5-6, 84 S.
Ct. 1489, 12 L. Ed. 2d 653 (1964);
Pointer v. Texas, 380 U.S. 400, 403-404,
85 S. Ct. 1065, 13 L. Ed. 2d 923 (1965);
Washington v. Texas, 388 U.S. 14, 18,
87 S. Ct. 1920, 18 L. Ed. 2d 1019 (1967);
Duncan, 391 U.S., at 147-148, 88 S. Ct.
1444, 20 L. Ed. 2d 491; Benton v.
Maryland, 395 U.S. 784, 794, 89 S. Ct.
2056, 23 L. Ed. 2d 707 (1969).
The decisions during this time
abandoned three of the previously noted
characteristics of the earlier period. The
Court made it clear that the governing
standard is not whether any “civilized
system [can] be imagined that would
not accord the particular protection.”
Duncan, 391 U.S., at 149, n. 14, 88 S.
Ct. 1444, 20 L. Ed. 2d 491. Instead,
the Court inquired whether a
particular Bill of Rights
guarantee is fundamental to our
scheme of ordered liberty and
system of justice. Id., at 149, and n.
14, 88 S. Ct. 1444, 20 L. Ed. 2d 491; see
also id., at 148, 88 S. Ct. 1444, 20 L. Ed.
2d 491 (referring to those “fundamental
principles of liberty and justice which
lie at the base of all our civil and
political institutions” (emphasis added;
internal quotation marks omitted)).
The Court also shed any reluctance to
hold that rights guaranteed by the Bill
of Rights met the requirements for
protection under the Due Process
Petition for Certiorari

Page 37

Id.

Clause. The Court eventually
incorporated almost all of the provisions
of the Bill of Rights. Only a handful of
the Bill of Rights protections remain
unincorporated.
George avers that Justice Black’s theory is

substantively correct and the Bill of Rights is not an

ala carte menu for courts to pick and choose from.
No court, including this Honorable Court, has
constitutional authority to pick and choose which
rights of the Bill of Rights citizens have and which
they do not have. If this Court desires to eliminate
the grand jury right for citizens, its justices have the
right to petition political leaders to make such
amendment. Article V explicitly prohibits this Court
from excising citizen’s substantive constitutional
rights outside of the Article V process. Such
authority is solely within the province of the people
through their states to amend the Constitution if
they believe that such is warranted. George
Petition for Certiorari

Page 38

respectfully avers that Bill of Rights applies to the
states through the Fourteenth Amendment in its
entirety. Accordingly, any remaining provisions of
the Bill of Rights not explicitly applied to states via
the Fourteenth Amendment heretofore by this Court
should be incorporated as jurisprudence moves
forward in accordance with Justice Black’s views.
George acknowledges that McDonald
referenced the Hurtado case from over 130 years ago
concerning grand jury indictments standing for the
premise that jurisprudence to date had not
incorporated the Fifth Amendment’s grand jury
indictment requirement. Id., 561 U.S. at 765 n.13.
However, although the case of Hurtado, 110 U.S. at
519 was legally erroneous by stopping short of
applying the grand jury provision of the Fifth
Amendment to the States via the Fourteenth
Amendment, it affirmatively held that the due

Petition for Certiorari

Page 39

process requirements had to be met as to
indictments. Id., 110 U.S. at 538. The Hurtado
Court specifically held that:
we are unable to say that the
substitution for a presentment or
indictment by a grand jury of the
proceeding by information, after
examination and commitment by a
magistrate, certifying to the probable
guilt of the defendant, with the right on
his part to the aid of counsel, and to the
cross-examination of the witnesses
produced for the prosecution, is not due
process of law.

Id. The Hurtado Court did not hold that California
could ignore any and all indictment procedures
established under California law as Virginia courts
did pursuant to Virginia law in George’s case. The
due process requirement needed to be met under

Hurtado and to the extent that this Court wishes to
perpetuate prior errors and does not wish to revisit

Hurtado, this Court should still hold that the right to
a grand jury indictment or its equivalent is

Petition for Certiorari

Page 40

jurisdictional rather than procedural. Virginia still
must meet the due process requirement. That
requirement has simply not been met in George’s
case.
If this Honorable Court wishes to continue to
follow the erroneous “selective incorporation”
doctrine, George avers that the Bill of Rights
guarantee of a grand jury indictment is fundamental
to our scheme of ordered liberty and system of justice
under the selective incorporation doctrine.

McDonald, 561 U.S. at 761-65.
In order to understand why the right to a
grand indictment is fundamental, it is instructive to
review the history of grand juries and their
equivalents further. The history of grand juries goes
back to early Grecian use of “Dicasteries”, which
were tribunals picked from lists of citizens whose
duty it was to accuse, try, and convict those alleged

Petition for Certiorari

Page 41

to have committed crimes. Bonner, Lawyers and
Litigants in Ancient Athens 36 (1927). Roman law
utilized “Judices”, which functioned similarly.
Patterson, The Administration of Justice in Great
Britain 200 (1936). Grand juries were subsequently
adopted as a part of the English system of law, which
then formed a basis for the legal system of most of
the United States. See, e.g., Whyte, Is the Grand
Jury Necessary?, 45 Wm. and Mary L. Rev. 462-71
(1959). The grand jury system was then brought to
Virginia early in the seventeenth century and has
been a part of Virginia’s legal system since that time.

Id. As summarized in the Handbook for Virginia
Grand Jurors (the “Handbook”) that is currently
used by Virginia Courts (emphasis added):
The Grand Jury had its origin more
than seven centuries ago in
England from which, in large
part, this country inherited its
legal system. Many legal historians
trace its origin to events in the reign of
Petition for Certiorari

Page 42

Henry II and to one of the articles of the
Constitution of Clarendon in 1164. It
was recognized in Magna Carta granted
by King John at the demand of the
people in 1215. One of its earliest
functions was to protect citizens from
despotic abuse of power by the king; its
other function was to report those
suspected of having committed criminal
offenses.
These two functions are carried
forward today in the work of the
Grand Jury, and its importance in
controlling the start of
prosecutions for serious crimes is
recognized in both the
Constitution of the United States
and the Constitution of Virginia .
Exhibit I at § 5. Thus, the Virginia Supreme Court,
which is responsible for the Handbook recognize the
fundamental importance of grand juries in
controlling the start of prosecutions. The Virginia
Supreme Court affirmed this fundamental
importance using the Constitution of the United
States and the Constitution of Virginia as primary
authorities.

Petition for Certiorari

Page 43

Federal and state judges have repeatedly
acknowledged the fundamental importance of grand
juries and the right thereto. For example, in an
opinion from the District Court of the Northern
District of California provided a discourse on the
importance of the grand jury right (internal footnote
references omitted, emphasis added):
The institution of the grand jury is a
development which comes to us out of
the mists of early English history. It
has undergone changes, but has been
remarkable stable because the
institution has been molded into
an instrument of democratic
government, extraordinarily
efficient for reflecting not the
desires or whims of any official or
of any class or party, but the deep
feeling of the people. As such, with
its essential elements of plenary
power to investigate and secrecy
of its deliberations, it was
preserved by the Constitution of
the United States not only to
protect the defendant but to
permit public spirited citizens,
chosen by democratic procedures,
to attach corrupt conditions. A
criticism of the action of the
Petition for Certiorari

Page 44

grand jury is a criticism of
democracy itself .
The inception of the ‘grand inquest’ is
shrouded in the early reaches of English
history. It was a device whereby
originally, when first authoritatively
noticed c. 1166, the Norman kings of
England required answers from
representatives of local units of
government concerning royal property
and franchise and also enforced
communal responsibility for the acts of
criminals. By gradations, the grand
juries gave voice to the fama publica of
the locale as to crimes, and were later
recognized in the character of witnesses.
Through hundreds of years, these
characteristics remain inherent. In an
early stage of evolution, the body made
presentment or presented indictments
at the behest of private individuals or
the Prosecutor for the King. Vestiges of
all these factors still subsist.
The institution was thus evolved as an
instrument for efficient prosecution of
crime, and as such it has remained until
this day. The principle of secrecy was
developed to protect the King’s Counsel
and to permit the Prosecutors to have
influence with the grand jury, and in
modern times it is still useful for the
same purpose. By degrees the secrecy of
proceedings permitted two outstanding
extensions in that grand jurors at times
refused to indict notwithstanding
pressure from the Crown and the
Petition for Certiorari

Page 45

Judges. This prerogative stood the
people will in hand during the tyranny
of the Stuarts, and, as it was eulogized
by Coke and Blackstone, the
institution was encysted with all
its characteristics in the Fifth
Amendment . … The Constitution of
the United States preserved the grand
jury with all its powers and inherent
character … the grand jury is an
essential element in the structure
of the federal government now .
No other instrument can cope
with organized crime which cuts
across state lines, conspiracies to
overthrow the government of the
United States, or alleged
deviations from rectitude by those
who have been entrusted by the
government with public trust …
The grand jury breathes the spirit of a
community into the enforcement of law.
Its effect as an institution for
investigation of all, no matter
how highly placed, creates the
elan of democracy . Here the people
speak through their chosen
representatives.

United States v. Smyth, 104 F. Supp. 283, 288-91
(N.D. Cal. 1952). The opinion in Smyth provides
solid reasoning showing why the Bill of Rights
guarantee of a grand jury indictment is fundamental
Petition for Certiorari

Page 46

to our scheme of ordered liberty and system of
justice.
Likewise, in Virginia in particular, the
Handbook emphasizes the fundamental importance
of grand juries and the right thereto by quoting
Harlan Fiske Stone, late Chief Justice of this
Honorable Court (emphasis added):
In time of peace a citizen can perform
no higher public duty than that of
Grand Jury service. No body of citizens
exercises public functions more
vital to the administration of law
and order … No one can be
prosecuted for a felony except on
an indictment by a Grand Jury ..
App. I at § 4.
For all of the stated reasons stated herein, the
grand jury indictment is fundamental to our scheme
of ordered liberty and system of justice under the
selective incorporation doctrine because of its
functions of protecting citizens against despotic
abuses of power by sovereigns and to report those
Petition for Certiorari

Page 47

suspected of having committed criminal offenses.
Thus, the Fifth Amendment right to a grand
jury indictment or its functional equivalent should
apply to the states including, without limitation, the
Commonwealth of Virginia.

B. The Grand Jury Right Should Apply to
the States Under the Fourteenth
Amendment Privilege and Immunities
Clause
Section 1 of the Fourteenth Amendment
requiring that the privileges and immunities of the
Fifth Amendment should apply to Virginia in
George’s case. The argument for applicability of the
privileges and immunities section of the Fourteenth
Amendment is at least equally compelling.
“It cannot be presumed that any clause in the
constitution is intended to be without effect.”

Marbury v. Madison, 5 U.S. 137, 1 Cranch 137, 174
(1803) (opinion for the Court by Marshall, C. J.).
Petition for Certiorari

Page 48

The Fifth Amendment to the United States
Constitution states in pertinent part (emphasis
added):

No person shall be held to
answer for a capital, or otherwise
infamous crime, unless on a
presentment or indictment of a
Grand Jury … nor shall any person
be subject for the same offence to be
twice put in jeopardy of life or limb; nor
shall be compelled in any criminal case
to be a witness against himself, nor be
deprived of life, liberty, or property,
without due process of law; nor shall
private property be taken for public
use, without just compensation.
The denial of George’s Petition renders his
grand jury right guaranteed by the Fifth
Amendment without effect. This is error and should
be reversed.
It is noteworthy that all other rights
conferred by the Fifth Amendment other than the
grand jury right have been specifically held by the
Court to apply to the states. The double jeopardy
prohibition of the Fifth Amendment has been held

Petition for Certiorari

Page 49

to apply to the States through the Fourteenth
Amendment. Benton, 395 U.S. at 794, 89 S. Ct. at
2062.
Likewise, the Fifth Amendment’s exception
from compulsory self-incrimination is also protected
by the Fourteenth Amendment against abridgment
by the States. Malloy, 378 U.S. at 6, 84 S. Ct. at
1492.
Further, by using comparable language to
that of the Fifth Amendment, the Fourteenth
Amendment specifically decreed that no person can
be deprived of “life, liberty, or property, without due
process of law”. Therefore, that provision of the
Fifth Amendment also applies to the states.
Finally, the taking of private property for
public use without just compensation also applies to
the states through the Fourteenth Amendment.

Petition for Certiorari

Page 50

See, e.g., Chi., B. & Q. R. Co. v. Chicago, 166 U.S.
226, 234, 17 S. Ct. 581, 583-84 (1897).
George avers that there is simply no valid
reason why Virginia should be allowed to violate
George’s constitutional right to a presentment or
indictment by a grand jury prior to answering for
crimes. It is erroneous for any court to take the
position that the grand jury provision is without
effect while enforcing all other Fifth Amendment
rights. Marbury, 5 U.S. 137.
Concerning the importance of enforcing the
Bill of Rights, Justice Black has stated (emphasis
added):
The first ten amendments [the Bill of
Rights] were proposed and adopted
largely because of fear that
Government might unduly interfere
with prized individual liberties. The
people wanted and demanded a Bill of
Rights written into their Constitution.
The amendments embodying the Bill of
Rights were intended to curb all
branches of the Federal Government in
the fields touched by the amendments - Legislative, Executive, and Judicial.
Petition for Certiorari

Page 51

The Fifth, Sixth, and Eighth
Amendments were pointedly aimed at
confining exercise of power by courts
and judges within precise boundaries,
particularly in the procedure used for
the trial of criminal cases. Past history
provided strong reasons for the
apprehensions which brought these
procedural amendments into being and
attest the wisdom of their adoption.
For the fears of arbitrary court action
sprang largely from the past use of
courts in the imposition of criminal
punishments to suppress speech, press,
and religion. Hence the constitutional
limitations of courts’ powers were, in
the view of the Founders, essential
supplements to the First Amendment,
which was itself designed to protect the
widest scope for all people to believe
and to express the most divergent
political, religious, and other views.

Adamson v. California, 332 U.S. 46, 70, 67 S. Ct.
1672, 1685 (1947) (Black. J., dissenting) (footnotes
omitted).
The Privileges or Immunities Clause of the
Fourteenth Amendment declares that “[n]o State …
shall abridge the privileges or immunities of citizens
of the United States.”
As noted by Justice Thomas, constitutional
provisions are “written to be understood by the
Petition for Certiorari

Page 52

voters.” McDonald, 561 U.S. at 813, 130 S. Ct. at
3063 (Thomas. J., concurring) (citing, District of

Columbia v. Heller, 554 U.S. 570, 576, 128 S. Ct.
2783, 2783 (2008)). Thus, in determining the scope
of the Fourteenth Amendment, it is pertinent to
discern what “ordinary citizens” at the time of
ratification of the Fourteenth Amendment would
have understood the Privileges or Immunities
Clause to mean. Id.
At the time that the Fourteenth Amendment,
the terms “privileges” and “immunities” had an
established meaning as synonyms for “rights.” Id.
The two words, standing alone or paired together,
were used interchangeably with the words “rights,”
“liberties,” and “freedoms,” and had been since the
time of Blackstone. Id. 561 U.S. at 814 (citing, 1 W.
Blackstone, Commentaries, which described the
“rights and liberties” of Englishmen as “private

Petition for Certiorari

Page 53

immunities” and “civil privileges”). A number of
antebellum judicial decisions used the terms in this
manner. Id. (citing, Magill v. Brown, 16 F. Cas. 408,
428, F. Cas. No. 8952 (No. 8,952) (CC ED Pa. 1833)
(“The words ‘privileges and immunities’ relate to the
rights of persons, place or property; a privilege is a
peculiar right, a private law, conceded to particular
persons or places”). Id.
By the time of the adoption of the Fourteenth
Amendment, it had long been established that both
the States and the Federal Government existed to
preserve their citizens’ inalienable rights, and that
these rights were considered “privileges” or
“immunities” of citizenship. Id.
These principles arose from our country’s
English roots. Id. Fundamental rights, according to
English traditions, belonged to all people but
became legally enforceable only when recognized in

Petition for Certiorari

Page 54

legal texts, including acts of Parliament and the
decisions of common-law judges. Id. (citing, B.
Bailyn, The Ideological Origins of the American
Revolution 77-79 (1967)).
Notably, concerning such rights, the First
Continental Congress declared in 1774 that the
King had wrongfully denied the colonists “the
rights, liberties, and immunities of free and naturalborn subjects . . . within the realm of England.” Id.
(citing, 1 Journals of the Continental Congress
1774-1789, p. 68 (W. Ford. ed. 1904)).
Several years later, the Bill of Rights was
adopted to amend the Constitution to expressly
protect the fundamental rights of citizens against
interference by the Federal Government. Id. 561
U.S. at 818. Consistent with their English heritage,
the founding generation generally did not consider
many of the rights identified in these amendments

Petition for Certiorari

Page 55

as new entitlements, but as inalienable rights of all
men, given legal effect by their codification in the
Constitution’s text. Id., 561 U.S. at 818-819 (citing,

inter alia, 1 Annals of Cong. 431-432, 436-437, 440442 (1789) (statement of Rep. Madison) (proposing
Bill of Rights in the First Congress).
The United States Supreme Court’s
subsequent decision in Barron, however, held at the
time it was rendered that the codification of these
rights in the Bill of Rights made them legally
enforceable only against the Federal Government,
not the States. 32 U.S. at 469, 7 Pet., at 247, 8 L.
Ed. at 751.
Section 1 of the Fourteenth Amendment
protects the rights of citizens “of the United States”.
Id. 561 U.S. at 823. In McDonald, Justice Thomas
provided evidence that overwhelmingly
demonstrated “that the privileges and immunities of

Petition for Certiorari

Page 56

such citizens included individual rights enumerated
in the Constitution”. Id. Those individual rights
also include those enumerated in the Fifth
Amendment, including the right requiring a grand
jury indictment before being made to answer for any
infamous crime.
Notably, when the Fourteenth Amendment
was recommended for adoption, the Joint
Committee on Reconstruction argued “adequate
security for future peace and safety . . . can only be
found in such changes of the organic law as shall
determine the civil rights and privileges of all
citizens in all parts of the republic.” Id. 561 U.S. at
827 (citing, Report of the Joint Committee on
Reconstruction, S. Rep. No. 112, 39th Cong., 1st
Sess., 15 (1866); H. R. Rep. No. 30, 39th Cong., 1st
Sess., p. XXI (1866).

Petition for Certiorari

Page 57

Justice Thomas’ concurring analysis in

McDonald cited to a large body of evidence including
numerous speeches, publications, and legal
decisions as proving that the privileges and
immunities clause of section 1 of the Fourteenth
Amendment was intended and understood to have
the purpose to enforce the Bill of Rights against the
states. Id. 561 U.S. at 827-835.
In this case, George had a fundamental right
to constitutionally mandated grand jury indictments
in his case. Indeed, the law of Virginia is fully
compatible with the Fifth Amendment provision in
requiring Grand Jury indictments for crimes such
as those for which George was convicted. This is not
a case where Virginia had any reliance on an
alternate procedure that could be claimed to provide
equivalent privileges and immunities to a grand
jury indictment.

Petition for Certiorari

Page 58

Instead of acting properly, the Circuit Court
chose to largely ignore the mandated grand jury
indictment process and proceeded to try George
without proper indictments. There was no proper
judge signed order indicting George.
In summary, the grand jury right of the Fifth
Amendment should apply to the states through the
Fourteenth Amendment for the reasons stated
herein. The Commonwealth of Virginia should not
be allowed to violate George’s right to a
presentment or indictment from a Grand Jury and
then for George to have no recourse.
Thus, the Fifth Amendment right to a grand
jury indictment or its functional equivalent should
apply to the states including, without limitation, the
Commonwealth of Virginia.
This Petition should be granted to affirm that
right.

Petition for Certiorari

Page 59

C. George’s defective grand jury
indictments deprived the Circuit Court
of Jurisdiction
George avers that the lack of an order of the
Circuit Court indicting him, Virginia courts had no
jurisdiction over his case.
It is long-standing law in Virginia that a
failure to record a proper grand jury indictment in a
court’s order book deprived a court trying a case of
jurisdiction. Commonwealth v. Cawood, 4 Va. 527,
541 (1826).
Failure to deliver the indictment in court and
record the finding is a “fatal defect”. Simmons v.

Commonwealth, 89 Va. 156, 157 (1892).
Under Virginia law, although a prisoner has in
fact been arraigned on, and has pleaded to, an
indictment not appearing by the record to have been
found by the Grand Jury, and if a third actual term

Petition for Certiorari

Page 60

has passed without such record of the findings, he is
entitled under Va. Code § 19.2-242 to be discharged
from the crime. Cawood, 4 Va. at 546; Adcock v.

Commonwealth, 49 Va. (Gratt.) 661, 671 (1851).
In this case George should be forever
discharged of the crimes charged because three (3) or
more terms of the Circuit Court have passed without
a trial on valid indictments that were presented in
open court by the Grand Jury and recorded.
Accordingly, George requests that this
Honorable Court grant this Motion and rule that the
failure to indict George are fatal defects that render
his indictments nullities and his convictions void for
lack of jurisdiction.

VI.

Overall Conclusion
For all of the reasons stated herein, George’s

Petition for Certiorari should be granted and his

Petition for Certiorari

Page 61

convictions vacated.
Dated: June 16, 2020
by
/s/ Dale R. Jensen
Dale R. Jensen
Dale Jensen, PLC
606 Bull Run
Staunton, Virginia 24401
(434) 249-3874
djensen@jensenjustice.com
Attorney for Petitioner

Petition for Certiorari

Page 62

